 DOE/IG-0550




                              DISPOSITION OF THE DEPARTMENT’S
         AUDIT                       EXCESS FACILITIES
        REPORT




                                               APRIL 2002




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                       U.S. DEPARTMENT OF ENERGY
                            Washington, DC 20585

                                    April 3, 2002




MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Disposition of the Department's
                         Excess Facilities"

BACKGROUND

During the course of nuclear weapons production, the Department of Energy (Department) and its
predecessor agencies constructed over 20,000 facilities, ranging from temporary trailer-type
buildings and office space to state-of-the-art nuclear reactors and laboratories. As the
Department's mission has evolved, many of these structures are no longer needed and, as such,
have been identified as excess facilities. Currently, the Department has nearly 1,200 excess
facilities totaling almost 16 million square feet. Costs associated with these facilities, primarily
for surveillance and maintenance, exceed about $70 million annually. Over time, these costs are
expected to increase, as will the health and safety risks that these buildings pose to workers and
the environment.

This audit was conducted to determine whether the Department prioritized facility disposition
consistent with its mission needs and to minimize overall costs and risks.

RESULTS OF AUDIT

We found that the performance of the Department's program to dispose of excess facilities was
not fully satisfactory. We noted that facility disposition activities were not prioritized to balance
mission requirements, reduce risks, and minimize life-cycle costs. In some cases, disposition
plans were in conflict with requirements for new facilities. In other instances, facilities posing
little risk were decommissioned while the Department failed to dispose of buildings representing
substantially greater risk.

These situations arose because the Department had not: (1) developed a corporate approach for
disposition activities; (2) collected and reported reliable data on costs associated with disposition
activities or on decommissioning performance; and, (3) designated sufficient funds to carry out an
effective disposition program.
                                                  -2-


Without a significantly enhanced approach to facility disposition, the Department may be
hindered in the accomplishment of its various missions. Specifically, the excess facility
disposition effort needed better coordination between cognizant program offices and greater
overall emphasis on risk reduction.

We recommended that the Department:

      • develop a corporate approach to managing infrastructure;

      • identify alternative approaches to fund disposition activities; and,

      • develop performance measures that convey the true nature of progress being made in
        eliminating excess facilities.

In October 2001, as a result of concern over the increasing number of excess facilities in the
Department, Congress provided additional funding to improve facilities and infrastructure
management. At least $60 million of this additional funding was to be used for the elimination of
excess facilities. In addition, the Department was instructed to collect information from all sites
on the square footage of excess property sold, transferred or demolished each year and submit a
report to Congress. We believe the specific recommendations included in this report will
facilitate the Department's efforts to use these designated funds efficiently and effectively.

MANAGEMENT REACTION

Management agreed in principle with our findings and recommendations, committing the
Department to steps to improve the disposition of excess facilities, including developing a new
policy to establish a more corporate approach to facility and infrastructure management.
However, management commented that Environmental Management's primary mission is to
complete cleanup and close sites and that disposition of excess facilities must be balanced against
the risk and cost associated with other cleanup requirements. Management's comments have been
included in their entirety in Appendix 3.

Attachment

cc:   Chief of Staff
      Under Secretary for Energy, Science and Environment
      Administrator, National Nuclear Security Administration
      Assistant Secretary for Environmental Management
      Deputy Administrator for Defense Programs
      Director, Office of Management, Budget and Evaluation/Chief Financial Officer
      Director, Office of Science
DISPOSITION OF THE DEPARTMENT'S EXCESS FACILITIES



TABLE OF
CONTENTS



                   Overview

                   Introduction and Objective ......................................................... 1

                   Conclusions and Observations .................................................. 2


                   Disposition of Excess Facilities

                   Details of Finding ....................................................................... 4

                   Recommendations ................................................................... 11

                   Comments ................................................................................ 12


                   Appendices

                   1. Scope and Methodology ..................................................... 13

                   2. Prior Reports ....................................................................... 15

                   3. Management Response...................................................... 16
OVERVIEW
INTRODUCTION AND   During the course of nuclear weapons production, the Department
OBJECTIVE          of Energy (Department) and its predecessor agencies constructed
                   over 20,000 facilities, many of which no longer serve a mission
                   and have been identified as excess to the Department's needs. In
                   some cases, these facilities have been excess for nearly 40 years.
                   Excess facilities exist at the majority of sites across the complex,
                   are a drain on the Department's limited resources, and pose
                   potential health risks. In addition, these facilities are
                   deteriorating, causing the cost of performing surveillance and
                   maintenance to increase while at the same time providing limited
                   or no value to the mission of the Department's programs. As time
                   passes, the potential for negative impacts to worker safety and the
                   environment will continue to increase. The Department has
                   nearly 1,200 excess facilities totaling almost 16 million square
                   feet. The cost of performing surveillance and maintenance on
                   these facilities was estimated to be more than $70 million in
                   Fiscal Year (FY) 2000 and will continue to increase over time.

                   The facility pictured below is a prime example of a deteriorating
                   facility that is excess to the Department's needs.




                            Krypton-85 Enrichment and Metal Segmenting Facility


Page 1                                                   Introduction and Objective
                  The final disposition of excess facilities typically includes surveillance
                  and maintenance to keep the facility safe; deactivation to clear the
                  facility and shut off non-essential systems; and decommissioning, the
                  final action necessary for unrestricted release of the facility or restricted
                  release for re-use. The Office of Environmental Management is
                  responsible for dispositioning all of the Department's contaminated
                  excess facilities. Other programs that own contaminated facilities may
                  transfer them to Environmental Management for final disposition after
                  they have been stabilized. Excess facilities that are not contaminated
                  remain the responsibility of the respective program, but still must be
                  dispositioned. Due to increasing constraints being placed on the
                  Department's limited resources, it is imperative that decisions be made
                  to ensure that dispositioning activities occur in the most effective
                  manner. Furthermore, the risks to workers and the environment
                  associated with excess facilities should be mitigated to the extent
                  possible.

                  Given the need to dispose of excess facilities, the objective of our audit
                  was to determine whether the Department prioritized facility disposition
                  consistent with its current missions and to minimize overall risks and
                  costs.


CONCLUSIONS AND   The Department did not fully consider mission requirements, risk
OBSERVATIONS      reduction, and costs when prioritizing facility disposition activities. In
                  some cases, disposition plans were in conflict with requirements for
                  new facilities planned for ongoing missions. In other instances,
                  facilities posing little or no risk to human health and the environment
                  were decommissioned while disposition of facilities that had much
                  higher associated risks had not been addressed. Finally, sites had not
                  completed cost-benefit analyses needed to fully consider the
                  relationship between recurring surveillance and maintenance costs and
                  one-time decommissioning costs. The Department (1) lacked a
                  corporate approach to facility disposition activities, (2) did not have
                  reliable and complete cost and performance information essential to
                  sound decision-making, and (3) did not sufficiently fund facility
                  disposition activities. As a result, the Department's national security
                  and science mission accomplishment may be hindered, and over time,
                  risks to workers and the environment may be increased as facilities
                  continue to deteriorate. In addition, the Department will continue to
                  pay over $70 million annually for surveillance and maintenance on
                  facilities that are excess to the Department's needs.




Page 2                                                     Conclusions and Observations
         To its credit, the Department has taken some early steps to improve the
         stewardship of excess facilities across facilities across the complex. For
         example, both the Office of Science and the National Nuclear Security
         Administration's Office of Defense Programs are attempting to
         implement policies for dealing with excess facilities and have required
         their sites to develop infrastructure improvement plans that should
         address the disposition of these facilities. Additionally Defense
         Program's Ten-Year Comprehensive Site Plans include some planning
         information relevant to the management of excess facilities. In our
         judgment, however, both the Science and Defense Programs plans fall
         short of fully addressing the excess facilities issue. Further, the Office
         of Management, Budget and Evaluation/Chief Financial Officer
         recently issued draft policy that if adopted, could improve management
         of the Department's assets. Environmental Management also deserves
         credit for dedicating millions of dollars to disposition projects. It has
         also added a line item to its budget in an attempt to fund the disposition
         of Defense Programs and Science contaminated excess facilities.

         The audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal control.




                                                       (Signed)
                                               Office of Inspector General




Page 3                                          Conclusions and Observations
DISPOSITION OF EXCESS FACILITIES



Prioritizing the          The Department did not prioritize the disposition of excess
Disposition of Excess     facilities among, or even within, programs. We found that no
Facilities                prioritized list of excess facilities existed at the corporate level
                          or at the program office level. There was no complex-wide
                          prioritization of excess facilities within Environmental
                          Management's area of responsibility. Moreover, at four major
                          Department sites visited, disposition activities were not
                          prioritized to fully account for mission requirements, or to
                          minimize risks and life-cycle costs. At the Y-12 National
                          Security Complex (Y-12) and Oak Ridge National Laboratory
                          (ORNL), disposition plans appeared to conflict with
                          requirements for new facilities. In other instances, facilities
                          posing little risk to human health and the environment were
                          demolished while the final disposition of riskier buildings had
                          not been addressed. Finally, some of the sites did not perform
                          site-wide cost-benefit analyses on costs associated with the
                          surveillance, maintenance, and disposition of excess facilities.

                                                Mission Requirements

                          Individual program offices did not always consider the mission
                          needs of other programs across the complex. For example,
                          Environmental Management's disposition plans were in conflict
                          with Defense Programs' draft modernization plans for Y-12.
                          Defense Programs' plans included construction of a new
                          Enriched Uranium Manufacturing Facility as early as FY 2007
                          where an excess facility, Alpha-4 (9201-4), now stands. The
                          Manufacturing Facility is critical to the Defense Programs
                          national security mission and will replace current aging and
                          oversized Enriched Uranium operations facilities.

                          Environmental Management was responsible for Alpha-4's
                          disposition. However, there were no plans for demolition in the
                          Environmental Management baseline.




Page 4                                                                     Details of Finding
                                     Alpha-4 at Y-12



         Environmental Management was also responsible for other disposition
         projects at Y-12 whose schedule may have an adverse impact on
         Defense Programs' modernization plan. For example, an official at
         Y-12 commented that the General Plating Shop (9401-2), an excess
         facility, sits on valuable real estate that could be used to support the
         modernization plans at the site. However, Environmental Management
         may not complete disposition of this facility until FY 2009.

         In addition, Environmental Management was responsible for the
         disposition of more than 70 excess facilities and 226,000 square feet at
         ORNL that, if left in place for an extended period, could hinder
         Science's long-term goals for that site as well. Although there was no
         immediate need for this land, Science reported that additional research
         and development activities could occur in the central part of the site
         after Environmental Management dispositions these excess facilities.




Page 5                                                        Details of Finding
                                      Risk Reduction

         Across the Department, facilities were dispositioned that posed little or
         no risk to workers or the environment. At the same time, several
         facilities that pose more serious threats to the workers and the
         environment remained. For example, of 26 facilities Environmental
         Management decommissioned at the Hanford Site (Hanford) in FY
         2000, 16 were office trailers that posed extremely low risk. However,
         several riskier facilities were not addressed in FY 2000, including:

         •   The Fabrication Mockup Shop Building (272-E) at Hanford, which
             was known to be a risk to worker safety because pieces of the
             building dislodged in high winds;

         •   The Krypton-85 Enrichment and Metal Segmenting Facility (3026)
             at ORNL, which needed a new roof to prevent a potential spread of
             contamination via rainwater. This building had deteriorated to
             such a point that site management was unable to perform routine
             surveillance and maintenance on the facility and was having
             difficulty procuring a contractor willing to replace the roof; and,

         •   The Building 12-024 Complex at the Pantex Plant, which
             contributed to groundwater contamination at the site and posed
             potential hazards to workers as a result of structural and biological
             hazards.

                                  Cost-Benefit Analysis

         Sites had not completed cost-benefit analyses needed to fully consider
         the relationship between recurring surveillance and maintenance costs
         and one-time decommissioning costs. Neither Defense Programs nor
         Science had completed site-wide cost-benefit analyses, and no
         adequate Departmentwide cost-benefit analysis existed. Although a
         facility may be completely abandoned, surveillance and maintenance
         will still be required to keep the facility safe until it has been
         decommissioned. Surveillance and maintenance costs are typically
         dependent on the size of the facility and the associated risks posed to
         human health and the environment. Decommissioning costs are also
         dependent on the size and associated risks of the facility. Because
         decommissioning is the final stage in the lifecycle of a facility, these
         should be the final costs associated with the facility. We believe that
         comparing these costs is essential to prioritize final disposition of
         excess facilities to achieve the maximum economic benefit.



Page 6                                                         Details of Finding
Requirements for         The Department requires that excess facilities be managed in a safe and
Dispositioning           cost-effective manner and that related decisions should focus on
                         furthering the missions of the Department. Department Order 430.1A
                         requires that stewardship of the Department's physical assets be
                         accomplished in a safe and cost-effective manner to meet the
                         Department's mission, and to ensure protection of workers, the public,
                         and the environment. This Order also requires a corporate approach be
                         taken towards facilities management and the programs to establish a
                         method for prioritizing infrastructure requirements. Furthermore, the
                         landlord program office at each site is responsible for prioritizing and
                         budgeting for real property needs in a manner consistent with current
                         and planned site mission activities.


Facilities Disposition   The Department was unable to effectively prioritize facility disposition
Approach                 because it lacked a corporate approach to these activities. Additionally,
                         program offices did not have reliable or complete information on costs
                         associated with excess facilities management or on decommissioning
                         performance. Finally, the program offices did not designate sufficient
                         funding for disposition activities.

                                                   Lack of a Corporate Approach

                         Excess facilities were the responsibility of at least three different
                         programs and were not managed at a complex-wide level.
                         Environmental Management, Defense Programs, and Science were
                         responsible for managing excess facilities within their respective
                         programs. However, these programs did not coordinate their activities
                         with other programs or resolve competing mission requirements.
                         Furthermore, while the Office of Management, Budget and Evaluation/
                         Chief Financial Officer was responsible for gathering facility
                         information on a complex-wide basis, it did not manage or obtain
                         funding for disposition of the Department's excess facilities inventory.

                         The Department has been criticized in the past for its lack of centralized
                         facility management. A 1997 Environmental Management study 1
                         concluded that if disposition of excess facilities was prioritized across
                         all sites and addressed with a single "pool" of budget dollars, savings of




                         1
                             This report, The Impact of Excess Facility Disposition on Near-Term Budgets
                             and Long-Term Infrastructure Planning in the U.S. Department of Energy, was
                             the basis for briefings to Departmental management, but was never issued as a
                             final report.
Page 7                                                                                  Details of Finding
         $1.6 billion and a 13-year reduction in cleanup schedule could be
         achieved. In our September 2000 report on Management of the Nuclear
         Weapons Production Infrastructure (DOE/IG-0484), we concluded that
         no one individual within the National Nuclear Security Administration
         was assigned responsibility for integrating 10-year site information
         (including excess facilities) to provide a Departmentwide overview of
         key information. Furthermore, a Facility Environmental Vulnerability
         Assessment completed in June 2001 at ORNL reported that each
         program has its own priorities that may not be in sync with others. The
         Assessment also concluded that a more holistic approach was necessary
         to ensure effective coordination of the programs and more efficient
         utilization of resources.

                           Reliable and Complete Information

         Program offices did not have reliable or complete information on costs
         associated with excess facilities management nor did they report
         accurate and balanced decommissioning performance results. The
         Department is charged with managing its facilities – including their
         ultimate disposition – in a cost-effective manner. In order to do so,
         sites or program offices need relevant cost data associated with
         surveillance, maintenance, decommissioning, and any other significant
         aspect of the disposition process. Once such data is captured, we
         believe it should be validated, analyzed, and factored into decision-
         making processes. Without relevant and reliable cost data, the
         Department could not ensure, or demonstrate to stakeholders and
         taxpayers, that its disposition decisions made economic sense.

         We found significant problems with the collection and analysis of cost
         data both at the sites we visited and at Headquarters program offices.
         For example:

         •    Hanford did not always collect surveillance and maintenance costs
              on a per-facility basis, while Y-12 did not collect these costs at all,
              making cost comparisons among potential disposition projects
              impossible;

         •    Dispositioning cost estimates at some sites were based on rough
              orders-of-magnitude estimates with no supportable documentation
              to permit a solid cost-benefit analysis; and,

         •    Departmentwide crosscut data regarding excess facilities was not
              complete or accurate.



Page 8                                                          Details of Finding
         We also observed that Environmental Management's reporting of
         performance results was potentially misleading. For example, we found
         that although Environmental Management claimed to have
         decommissioned six facilities at Argonne National Laboratory, the
         work related to only two buildings, one of which was not completed in
         FY 2000. We noted a similar occurrence at one other site. Also,
         Environmental Management reported it had nearly met its
         decommissioning goal of 82 facilities in FY 2000 by decommissioning
         77 facilities. However, we found that many facilities dispositioned by
         Environmental Management were trailers that posed little or no risk to
         workers or the environment or were only partial facilities. Without
         accurate reporting on performance, the Department cannot effectively
         plan and prioritize future disposition activities.

                      Insufficient Funds Designated for Disposition

         Finally, we found that Science and Defense Programs chose not to
         provide significant funds for disposition activities. For example, while
         the Science budget at ORNL was $465 million in FY 2001, it dedicated
         virtually no funds to dispositioning activities and had not completed a
         decommissioning project at ORNL since FY 1994. In addition,
         Defense Programs budgeted more than $1.1 billion at Los Alamos
         National Laboratory in FY 2001, but dedicated only $3.7 million to
         dispositioning activities.

         Regarding funding, during our review we spoke to Department of
         Defense officials, who recently faced similar problems with excess
         facilities. The Department of Defense was also struggling to balance
         the need to dispose of excess facilities, and the associated costs, with
         high priority continuing missions. The Department of Defense adopted
         an approach that included increased funding for disposition activities.
         It also implemented a square foot for square foot policy on new
         construction; meaning that for every square foot of new facility
         constructed an equal amount of excess facility square footage would
         have to be eliminated. As a result of these new policies, the
         Department of Defense estimated that it eliminated 45 million square
         feet of excess building space, saving $90 million annually, and
         potentially reducing risks. Based on our review, we concluded that
         unless the Department adopts a corporate approach, whether modeled
         after the Department of Defense's disposal initiative or some other
         alternative, funding may continue to be problematic.




Page 9                                                        Details of Finding
Cost and Programmatic   The Department's current structure for managing excess facilities and
Implications            its lack of progress in dispositioning excess facilities may present
                        obstacles to completing mission activities; increase risks to workers
                        and the environment; and result in significant unnecessary costs.

                        In some instances, the continuing presence of excess facilities may
                        prevent the Department from successfully accomplishing its missions.
                        As noted earlier, if Environmental Management leaves the Alpha-4
                        facility at Y-12 in place as currently planned, Defense Programs may
                        have to delay construction of its Enriched Uranium Manufacturing
                        Facility. This could result in increased maintenance costs and missed
                        opportunities for operational efficiencies. Similar concerns were
                        raised by other program managers at the sites we visited.

                        The risks to workers and the environment may also increase as excess
                        facilities remain in place and continue to deteriorate. In 2000, Defense
                        Programs issued the Facilities and Infrastructure Assessment, which
                        documented that the Department's excess facilities are in poor
                        condition and the potential for an adverse environment, safety, and
                        health event increases over time. Officials at the sites visited
                        acknowledged that the risks associated with maintaining excess
                        facilities continue to increase over time as the buildings continue to
                        deteriorate.

                        In addition, the Department will continue to spend millions of dollars
                        for surveillance and maintenance on excess facilities, and will likely
                        face increased dispositioning costs in the future. In fact, a 1994
                        Department review 2 concluded that it is more effective and
                        subsequently less expensive to address excess facility management up
                        front rather than to postpone taking actions. The 1997 Environmental
                        Management study identified several benefits to dispositioning excess
                        facilities in the near-term, including significant long-term cost savings
                        and efficient completion of the Department's missions. Absent
                        eliminating these excess facilities, the Department will continue to pay
                        over $70 million annually for surveillance and maintenance on
                        facilities that are excess to the Department's needs. At just the four
                        sites we visited, the Department paid more than $39 million for
                        surveillance and maintenance activities in FY 2001 and expects to
                        spend more than $41 million for these activities in FY 2002. We also
                        found that:




                        2
                            Surplus Facility Inventory and Assessment Report, FY 1994
Page 10
                                                                                    Details of Finding
                  •   Roof repairs on excess facilities at ORNL cost $1.4 million in
                      FY 2001 and may exceed $750,000 in FY 2002.

                  •   Immediately dispositioning the SP-100 GES Test Facility (309) at
                      Hanford could save $1.5 million per year in surveillance and
                      maintenance costs, as well as avoiding any future increases in
                      disposition costs. The disposition was estimated at $13.9 million,
                      but the Department has spent nearly $12 million for surveillance
                      and maintenance to date.

                  •   Waste disposal costs for demolition projects completed after
                      FY 2004 may increase at LANL an average of $200,000 per project
                      as a result of changing landfill waste acceptance criteria.


RECOMMENDATIONS   We recommend that the Director of the Office of Management, Budget
                  and Evaluation/Chief Financial Officer work with the National Nuclear
                  Security Administration and the Offices of Science and Environmental
                  Management to:

                  1. Develop and implement a corporate approach to managing
                     infrastructure activities to ensure that excess facilities are prioritized
                     for disposition on the basis of mission need, risk, and cost. Such an
                     approach should include:

                      •     A single entity or office to resolve conflicts between
                            disposition requirements and mission priorities; and,

                      •     A system to collect sufficient data to make cost-benefit
                            decisions regarding the disposition of excess facilities.

                  2. Establish performance measures for the effective and efficient
                     management of dispositioning excess facilities that convey the true
                     nature of the progress being made.

                  3. Identify alternative funding approaches for facilities disposition,
                     including those adopted by the Department of Defense.




Page 11                                                                 Recommendations
MANAGEMENT         Management agreed in principle with our findings and
REACTION           recommendations. The Department agreed to take steps to improve the
                   disposition of excess facilities, including developing a new policy to
                   establish a more corporate approach to facility and infrastructure
                   management. However, in regards to our first recommendation,
                   management commented that Environmental Management's primary
                   mission is to complete cleanup and close sites. Management further
                   emphasized that disposition of excess facilities must be balanced
                   against the risk and cost associated with other cleanup requirements.
                   Management's comments have been included in their entirety in
                   Appendix 3.


AUDITOR COMMENTS   Planned corrective actions were responsive to our recommendations.
                   We believe that effective implementation of a new policy to establish a
                   corporate approach to disposition will aid management in resolving
                   competing mission priorities of program offices and lead to improved
                   management of excess facilities by the Department.




Page 12                                                                        Comments
Appendix 1

SCOPE         This audit was performed from May to December 2001 at Department
              Headquarters in Washington, DC and Germantown, MD. Site visits
              were made to the Los Alamos National Laboratory in Los Alamos, NM;
              the Richland Operations Office in Richland, WA; and, the Oak Ridge
              National Laboratory and the Y-12 National Security Complex in Oak
              Ridge, TN.

              The scope of our audit was limited to the disposition of excess facilities
              within the Offices of Defense Programs, Environmental Management,
              and Science.


METHODOLOGY   To accomplish our audit objective we:

              •   Reviewed prior Office of Inspector General reports to identify
                  concerns associated with maintaining and dispositioning excess
                  facilities throughout the Department.

              •   Reviewed reports prepared by other Departmental programs to
                  identify concerns related to our audit and determined whether
                  actions were taken by the responsible program to correct any
                  problems identified in these reports.

              •   Obtained and reviewed applicable Departmental directives and
                  Congressional language related to the maintenance and disposition
                  of excess facilities.

              •   Held discussions with officials from the Department of Defense and
                  reviewed documentation to support policies for dispositioning
                  excess space with the Department of Defense.

              •   Held discussions with officials within the Offices of Defense
                  Programs, Environmental Management, Science and Management,
                  Budget and Evaluation/Chief Financial Officer regarding the
                  process used by the Department to prioritize and disposition excess
                  facilities.

              •   Determined if the Department established performance measures to
                  measure the effectiveness of managing excess facilities and whether
                  the results of these measures demonstrated progress in eliminating
                  excess space throughout the complex.




Page 13                                                     Scope and Methodology
          We conducted the audit in accordance with generally accepted
          Government auditing standards for performance audits, and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objective. Accordingly, we
          assessed internal controls and performance with regard to the process
          used by the Department to prioritize and disposition excess facilities.
          Because our review was limited, it would not necessarily have disclosed
          all internal control deficiencies that may have existed at the time of our
          audit. We placed limited reliance on computer-processed data to
          accomplish our audit objective and performed limited test work of data
          reliability during our audit.

          We held an exit conference with the Offices of Environmental
          Management and Management, Budget and Evaluation/Chief Financial
          Officer on March 22, 2002. The Office of Science and the National
          Nuclear Security Administration waived an exit conference.




Page 14                                                 Scope and Methodology
Appendix 2

                                           PRIOR REPORTS

          •   Management of the Nuclear Weapons Production Infrastructure, (DOE/IG-0484,
              September 2000). Current and future goals of the Stockpile Stewardship Plan are at
              risk because the nuclear weapons production infrastructure had not been adequately
              maintained. The Office of Inspector General (OIG) reported that the Department did
              not have an overall implementation approach to manage its nuclear weapons
              production infrastructure and operated under funding constraints. It was also
              reported that no one individual was assigned responsibility for integrating
              information for a Departmentwide overview of key information.

          •   Audit of the Deactivation, Decontamination, and Disposal of Surplus Facilities at
              the Savannah River Site, (ER-B-98-01, October 1997). The Department could have
              avoided annual costs of about $1.3 million in surveillance and maintenance costs by
              spending $1.2 million to deactivate a project. The OIG reported that the Operations
              Office did not compile a site-wide list, establish priorities, or provide sufficient
              funding for the deactivation, decontamination, and disposal of surplus facilities.

          •   Facilities Information Management System, (DOE/IG-0468, April 2000). The
              ability of Departmental management, Congress, and other Federal agencies to use
              FIMS data to make informed decisions pertaining to real property holdings was
              questionable. The OIG reported that information included in FIMS was inaccurate
              and incomplete because many field sites maintained their own site-specific real
              property systems and did not use FIMS to manage property.

          •   Decontamination and Decommissioning at the East Tennessee Technology Park,
              (ER-B-99-01, December 1998). The Department could incur $34.5 million in
              unnecessary surveillance and maintenance costs between FYs 1998 and 2002 for a
              building that posed significant risks to workers and the environment. The OIG
              reported that the Oak Ridge Operations Office reduced health, safety, and
              environmental risks through D&D projects at the ETTP. However, the major
              ongoing D&D project at the ETTP did not involve the facility that posed the greatest
              risks from exposure to radioactive waste, hazardous or toxic materials, and structural
              collapse.




Page 15                                                                                        Prior Reports
Appendix 3




Page 16      Management Response
Page 17
Page 18
Page 19
                                                                           IG Report No. DOE/IG-0550

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers’ requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________            Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
       electronically through the Internet at the following alternative addresses:


             Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
